HHS/OIG, Audit -"Alternative Medicare Payment Methodologies for the Costs of Training Medical Residents in Nonhospital
Settings,"(A-02-04-01012)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Alternative Medicare Payment Methodologies
for the Costs of Training Medical Residents in Nonhospital Settings," (A-02-04-01012)
December 8, 2004
Complete
Text of Report is available in PDF format (368 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
OIG will issue a final report on December 8, 2004 to the Congress and to the Centers for Medicare and Medicaid Services
(CMS) entitled, Alternative Medicare Payment Methodologies for the Costs of Training Medical Residents in Nonhospital
Settings.  Section 713 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003 mandated that
the OIG conduct a study and report to the Congress on alternative Medicare payment methodologies for the costs of training
medical residents in nonhospital settings.  This final report identifies and describes five alternative methodologies
for paying the training costs of such residents.  Each of the five payment options has both positive and negative
aspects.  Therefore, before implementing any option, we are recommending that CMS work with Congress to:  (1)
further analyze the current financial arrangements and incentives among teaching hospitals, nonhospital settings, and supervisory
physicians in nonhospital settings, (2) study the potential impact of any revisions to the current policy, and (3) clarify
the definition of all or substantially all of the costs associated with training residents in nonhospital settings.